APPENDIX TABLE OF CONTENTS
Summary Order of the Second Circuit
(June 21, 2019) ................................................... 1a
Opinion and Order of the District Court
of New York (September 20, 2018) .................... 6a
Order of the Second Circuit Denying Petition
for Rehearing En Banc (August 9, 2019) ......... 22a
Statutory Text ......................................................... 23a

App.1a
SUMMARY ORDER OF THE SECOND CIRCUIT
(JUNE 21, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
MOUSSA DIARRA,

Plaintiff-Appellant,
v.
CITY OF NEW YORK,

Defendant-Appellee.

________________________
No: 18-2821-cv

Appeal from the United States District Court for the
Southern District of New York (Broderick, J.)
Before: Pierre N. LEVAL, Rosemary S. POOLER,
Barrington D. PARKER, Circuit Judges.
ON CONSIDERATION WHEREOF, IT IS HEREBY ORDERED, ADJUDGED, AND DECREED that
the judgment of said District Court be and it hereby is
AFFIRMED.
Appellant Moussa Diarra appeals from the September 21, 2018, judgment of the United States District
Court for the Southern District of New York (Broderick,
J.), granting summary judgment to the City of New
York (the “City”) on Diarra’s federal civil rights claims,
brought pursuant to 42 U.S.C. § 1983, and related state-

App.2a
law claims. Diarra v. City of New York, No. 16-CV7075 (VSB), 2018 WL 4538903, at *1 (S.D.N.Y. Sept.
20, 2018). We assume the parties’ familiarity with the
underlying facts, procedural history, and specification
of issues for review.
“This court reviews a district court’s grant of a
motion for summary judgment de novo, construing the
evidence in the light most favorable to the nonmoving party.” Irby v. N.Y.C. Transit Auth., 262 F.3d
412, 413 (2d Cir. 2001) (internal quotation marks
omitted). “All ambiguities must be resolved in favor
of the non-moving party and all permissible inferences
from the factual record must be drawn in that party’s
favor.” Zalaski v. City of Bridgeport Police Dep’t, 613
F.3d 336, 340 (2d Cir. 2010). Summary judgment is
appropriate only “if the movant shows that there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Fed. R. Civ. P. 56(a).
Diarra has sued only the City. He alleges that
the City is liable because he was arrested pursuant to
an unconstitutional City policy. “Under the standards of
Monell v. Department of Social Services, 436 U.S.
658 (1978), a municipality can be held liable under
Section 1983 if the deprivation of the plaintiff’s
rights under federal law is caused by a governmental
custom, policy, or usage of the municipality.” Jones v.
Town of East Haven, 691 F.3d 72, 80 (2d Cir. 2012); see
also Monell, 436 U.S. at 690-91. “Absent such a custom,
policy, or usage, a municipality cannot be held liable
on a respondeat superior basis for the tort of its
employee.” Jones, 691 F.3d at 80.
Here, as the district court correctly held, Diarra
came forward with no evidence demonstrating that

App.3a
the alleged deprivations of his federal constitutional
rights were the result of a municipal custom, policy,
or usage. See Diarra, 2018 WL 4538903, at *5-6. The
only evidence of any municipal policy was the deposition
testimony of the arresting officer who stated that the
decision to arrest Diarra was based “[m]ostly [on]
NYPD policy.” App’x at 86. The officer described that
“policy” as follows: “It was a domestic arrest, meaning
they [i.e., Diarra and his then-wife who accused Diarra
of physical and sexual assault] have an intimate relationship. There’s a victim. There were the hospital
reports.” App’x at 86. The officer provided the following
further description of that City policy: “[It was not]
necessarily a written rule that the NYPD has, but if
you have a complainant witness and medical evidence
showing, in this case this assault, then there’s probable
cause to make an arrest.” App’x at 88.
That testimony merely supports the proposition,
as the district court observed, that the New York City
Police Department “has a policy of making arrests
based on probable cause,” and that, “generally, when
there is a complaining witness and corroborating
medical evidence demonstrating assault, there is
probable cause.” Diarra, 2018 WL 4538903, at *5. There
is nothing unconstitutional about such a policy. See,
e.g., Stansbury v. Wertman, 721 F.3d 84, 90 (2d Cir.
2013) (“[A]bsent circumstances that raise doubts as to
the victim’s veracity, a victim’s identification is typically sufficient to provide probable cause.” (internal
quotation marks omitted)); Martinez v. Simonetti, 202
F.3d 625, 634 (2d Cir. 2000) (“[P]olice officers, when
making a probable cause determination, are entitled
to rely on the victims’ allegations that a crime has
been committed.”). The district court thus properly

App.4a
granted summary judgment to the City on Diarra’s
federal claims.
The district court also granted the City summary
judgment on Diarra’s state-law claims because Diarra
“failed to submit any evidence that he complied with
New York’s notice-of-claim provisions before bringing
this action.” Diarra, 2018 WL 4538903, at *6. Diarra
argues that New York’s notice-of-claim requirement,
N.Y. Gen. Mun. Law § 50-i(1), is preempted in Section
1983 litigation. That is true as to Diarra’s Section
1983 claims. See Felder v. Casey, 487 U.S. 131, 138
(1988). It is not true as to Diarra’s state-law claims. To
the contrary, the district court was “obligated to
apply [New York’s] notice-of-claim provision” to Diarra’s
state-law claims. Id. at 151. Under New York law,
“[a] notice of claim is a condition precedent to bringing
a tort claim against a municipality.” O’Brien v. City
of Syracuse, 54 N.Y.2d 353, 358 (1981). “Failure to
comply with these requirements ordinarily requires a
dismissal for failure to state a cause of action.” Hardy
v. N.Y.C. Health & Hosps. Corp., 164 F.3d 789, 794
(2d Cir. 1999); see also, e.g., Kassapian v. City of New
York, 65 N.Y.S.3d 562, 566 (2d Dep’t 2017) (“The
Supreme Court properly granted dismissal of the cause
of action alleging violations of the State Constitution
on the ground that the plaintiff failed to serve a notice
of claim.”). Diarra’s argument is thus without merit.
Diarra next argues that vacatur is required
because the district judge who presided over his case
appeared biased and should have recused himself. The
bulk of Diarra’s “complaints about the district judge
center on judicial rulings, ordinary [case] administration
efforts, and relatively routine commentary on the
positions and conduct of the parties in the litigation.”

App.5a

SEC v. Razmilovic, 738 F.3d 14, 30 (2d Cir. 2013).

Diarra points to “no objective basis for attributing”
those judicial acts “to bias.” Id. Regarding the district
judge’s past position with the City, Diarra makes no
suggestion that Judge Broderick had any role with
the City when the events at issue in this case took
place such that one could even remotely conclude that
he had “participated as counsel, adviser or material
witness concerning the proceeding.” See 28 U.S.C.
§ 455(b)(3). In sum, we identify no hint of actual or
apparent bias on the part of the district judge.
We have considered the remainder of Diarra’s
arguments and find them to be without merit. Accordingly, the judgment of the district court hereby is
AFFIRMED.

FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk

App.6a
OPINION AND ORDER OF THE
DISTRICT COURT OF NEW YORK
(SEPTEMBER 20, 2018)
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
________________________
MOUSSA DIARRA,

Plaintiff,
v.
CITY OF NEW YORK,

Defendant.

________________________
No. 16-CV-7075 (VSB)

Before: Vernon S. BRODERICK,
United States District Judge.
VERNON S. BRODERICK,
United States District Judge:
Plaintiff Moussa Diarra brings this action against
Defendant City of New York (the “City”) alleging claims
arising under 42 U.S.C. § 1983 and New York State
law. Before me is Defendant’s motion for summary
judgment as to all of Plaintiff’s claims. Because Plaintiff fails to present evidence of a municipal policy or
custom and because Plaintiff failed to file a notice of
claim, Defendant’s motion is GRANTED.

App.7a
I.

Background1

On September 22, 2014, Plaintiff’s wife went to
Harlem Hospital, reporting that she was abused by
her husband. (Def.’s 56.1 ¶¶ 5–8; Smith Decl. Ex. D,
at 51.)2 Specifically, she reported that Plaintiff had
been physically abusing her since she came to the
United States and that he cut her vagina with a razor
blade. (Def.’s 56.1 ¶ 8; Smith Decl. Ex. D, at 57.) She
reported feeling pain to her perineum at a pain level
of eight, (Def.’s 56.1 ¶ 7; Smith Decl. Ex. D, at 56),
and a pelvic exam showed two small lacerations to
her right labia minora, blood in her vaginal canal, and
bleeding from the center of her cervix, (Def.’s 56.1
¶¶ 9–10; Smith Decl. Ex. D, at 65–66). She was
diagnosed as having suffered sexual abuse. (Def.’s
56.1 ¶ 11; Smith Decl. Ex. D, at 69.)
On the same day Plaintiff’s wife went to Harlem
Hospital, Detective Lukasz Skorzewski of the New
York City Police Department (“NYPD”) Manhattan
Special Victims Squad responded to her complaint.
(Def.’s 56.1 ¶¶ 12, 14; Smith Decl. Ex. D, at 70–71.)
Plaintiff’s wife told Detective Skorzewski that Plaintiff sexually assaulted her by physically forcing her
to have anal sex with him after she refused. (Def.’s
56.1 ¶¶ 14–17; Smith Decl. Ex. D, at 70; Smith Decl.
1 Unless otherwise noted, the facts in the background section
are taken from Defendant’s Statement of Material Facts Pursuant to Local Civil Rule 56.1, (Doc. 181), and I construe those
facts as undisputed for the reasons stated below.
2 “Def.’s 56.1” refers to Defendant’s Statement of Material Facts
Pursuant to Local Civil Rule 56.1, filed January 22, 2018. (Doc.
181.) “Smith Decl.” refers to the Declaration of Valerie E. Smith
in Support of Defendant’s Motion for Summary Judgment, and
attached exhibits, filed January 22, 2018. (Doc. 179.)

App.8a
Ex. H, at 117.) She also told Detective Skorzewski that
Plaintiff used a razor blade to cut her vagina. (Def.’s
56.1 ¶ 18; Smith Decl. Ex. E, at 13:22-14:5; Smith
Decl. Ex. H, at 117.) Plaintiff’s wife identified him to
police officers by showing them a picture of him.
(Def.’s 56.1 ¶ 20; Smith Decl. Ex. D, at 72.)
On September 23, 2014, Plaintiff was arrested
and charged with assault in the second degree as a
sexually motivated felony, criminal sex act in the
first degree, and female genital mutilation. (Def.’s
56.1 ¶ 21; Smith Decl. Ex. G.) After approximately ten
days of trial, Plaintiff was acquitted by a jury. (Smith
Decl. Ex. C, at 64:6-20.)
During his deposition, Detective Skorzewski testified that he arrested Plaintiff pursuant to an NYPD
policy of making arrests based on probable cause. (Skorzewski Dep. 31:2-18.)3 He also testified that during
the periods relevant to this action, he had no responsibility for determining policies and practices of the
NYPD. (Def.’s 56.1 ¶ 13; Smith Decl. Ex. F ¶¶ 3–4.)
II.

Procedural History

Plaintiff filed this action on September 10,
2016. (Doc. 1.) Defendant submitted an answer to the
complaint on May 10, 2017. (Doc. 29.) After holding
an initial pretrial conference on July 11, 2017, I
entered a case management plan and scheduling
order. (Doc. 58.)

3 “Skorzewski Dep.” refers to the Deposition of Detective Lukasz
Skorzewski, dated November 14, 2017 and attached as Exhibit
E to the Smith Declaration. (Doc. 179-5.)

App.9a
On August 28, 2017, Plaintiff submitted a letter
motion requesting leave to amend the complaint. (Doc.
74.) On September 19, 2017, I granted Plaintiff’s
motion for leave to amend the complaint. (Doc. 83.)
Plaintiff filed the amended complaint on the same
day. (Doc. 86.) Defendant submitted an answer to the
amended complaint on October 7, 2017. (Doc. 94.)
After the conclusion of discovery, Defendant filed
a motion for summary judgment and supporting papers
on January 22, 2018. (Docs. 178–81.) Plaintiff filed
his opposition and supporting papers on February 2,
2018. (Docs. 183–86.) Because Plaintiff’s opposition
memorandum exceeded sixty pages, in violation of the
twenty-five page limit on memoranda under my Individual Rules & Practices in Civil Cases, and Plaintiff
had not sought leave to file an oversized memorandum, Defendant requested that I strike Plaintiff’s
opposition memorandum. (Doc. 187.) I entered an order
instructing Plaintiff to file an abbreviated memorandum, and that if he failed to do so, I would only
consider the first twenty-five pages of his original
memorandum in deciding Defendant’s motion. (Doc.
189.) Plaintiff submitted a letter informing me that
he would not submit an abridged memorandum, and
that I should consider only the first twenty-five pages
of his original memorandum. (Doc. 190.) Defendant
filed its reply memorandum on February 12, 2018.
(Doc. 192.)
On February 13, 2018, Plaintiff filed a letter
addressing purported misstatements in Defendant’s
reply memorandum and requesting that Defendant’s
Rule 56.1 Statement be stricken for violation of local
ECF guidelines and of a protective order. (Doc. 193.)
Defendant submitted a response letter requesting that

App.10a
Plaintiff’s February 13, 2018 letter be stricken as an
improper sur-reply. (Doc. 194.) Plaintiff responded to
that letter on the same day. (Doc. 195.) Because
Plaintiff’s letters simply referred to portions of documents that were already introduced in conjunction
with Defendant’s summary judgment motion and
introduced arguments in response to Defendant’s reply
memorandum, I construed them as a sur-reply and
granted Defendant’s motion to strike them. (Doc. 196.)
I also instructed Plaintiff to submit the legal basis
for his request to strike or redact Defendant’s Rule
56.1 Statement. (Id.) After Plaintiff submitted letters
providing the purported legal basis for his request to
strike, (Docs. 198, 203), I denied his request on June
14, 2018, (Doc. 204). On August 8, 2018, after an
extended back-and-forth regarding the sealing of
materials inappropriately filed on the docket—including
a conference held on June 28, 2018 during which I
referenced my individual rule concerning filing materials under seal and explicitly told Plaintiff’s counsel
the materials that had been inappropriately filed on
the docket—Plaintiff re-filed his declaration in opposition to Defendant’s summary judgment motion. (Doc.
226.)
III. Legal Standard
A. Summary Judgment
Summary judgment is appropriate when “the
parties’ submissions show that there is no genuine
issue as to any material fact and the moving party is
entitled to judgment as a matter of law.” Fay v. Oxford
Health Plan, 287 F.3d 96, 103 (2d Cir. 2002); see also
Fed. R. Civ. P. 56(a). “[T]he dispute about a material
fact is ‘genuine[ ]’ . . . if the evidence is such that a

App.11a
reasonable jury could return a verdict for the nonmoving party.” Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986). A fact is “material” if it “might
affect the outcome of the suit under the governing
law,” and “[f]actual disputes that are irrelevant or
unnecessary will not be counted.” Id.
On a motion for summary judgment, the moving
party bears the initial burden of establishing that no
genuine factual dispute exists, and, if satisfied, the
burden shifts to the nonmoving party to “set forth
specific facts showing that there is a genuine issue
for trial,” id. at 256, and to present such evidence
that would allow a jury to find in his favor, see
Graham v. Long Island R.R., 230 F.3d 34, 38 (2d Cir.
2000).
To defeat a summary judgment motion, the nonmoving party “must do more than simply show that
there is some metaphysical doubt as to the material
facts,” Matsushita Elec. Indus. Co. v. Zenith Radio
Corp., 475 U.S. 574, 586 (1986). “A party asserting
that a fact cannot be or is genuinely disputed must
support the assertion by . . . citing to particular parts
of materials in the record, including depositions, documents, electronically stored information, affidavits or
declarations, stipulations (including those made for
purposes of the motion only), admissions, interrogatory answers, or other materials. . . . ” Fed. R. Civ. P.
56(c)(1). In the event that “a party fails . . . to properly
address another party’s assertion of fact as required
by Rule 56(c), the court may,” among other things,
“consider the fact undisputed for purposes of the
motion” or “grant summary judgment if the motion and
supporting materials—including the facts considered

App.12a
undisputed—show that the movant is entitled to it.”
Fed. R. Civ. P. 56(e)(2), (3).
Finally, in considering a summary judgment
motion, the Court must “view the evidence in the light
most favorable to the nonmoving party and draw all
reasonable inferences in its favor, and may grant
summary judgment only when no reasonable trier of
fact could find in favor of the nonmoving party.” Allen
v. Coughlin, 64 F.3d 77, 79 (2d Cir. 1995) (internal
citations and quotation marks omitted); see also
Matsushita, 475 U.S. at 587. “[I]f there is any evidence
in the record that could reasonably support a jury’s
verdict for the non-moving party,” summary judgment
must be denied. Marvel Characters, Inc. v. Simon,
310 F.3d 280, 286 (2d Cir. 2002).
B. Local Civil Rule 56.1
Local Civil Rule 56.1 requires that “[e]ach statement by the movant or opponent pursuant to Rule
56.1(a) and (b), including each statement controverting
any statement of material fact, must be followed by
citation to evidence which would be admissible.”
L.R. Civ. P. 56.1(d). “[C]ourts in this circuit have not
hesitated to deem admitted the facts in a movant’s
Local Rule 56.1 Statement that have not been
controverted by a Local Rule 56.1 statement from the
nonmoving party.” Liles v. N.Y.C. Dep’t of Educ., 516
F. Supp. 2d 297, 308 (S.D.N.Y. 2007) (quoting Gadsden
v. Jones Lang Lasalle Ams., Inc., 210 F. Supp. 2d
430, 438 (S.D.N.Y. 2002) (listing cases)).
In order to controvert a statement “the non-moving
party must cite to evidence that would be admissible
at trial to show that the controverted statement is, in
fact, in dispute.” Costello v. N.Y. State Nurses Ass’n,

App.13a
783 F. Supp. 2d 656, 661 n.5 (S.D.N.Y. 2011). “If the
non-movant asserts that a fact claimed by the movant
to be undisputed is actually in dispute, the non-movant
must cite evidence on the record to support its contention.” Rodriguez v. Schneider, No. 95 CIV. 4083(RPP),
1999 WL 459813, at *1 n.3 (S.D.N.Y. June 29, 1999),
aff’d, 56 F. App’x 27 (2d Cir. 2003).
IV. Discussion
A. Sufficiency of Plaintiff’s Rule 56.1 Statement
Defendant argues that Plaintiff’s Rule 56.1 Statement fails to conform to the requirements of the
local rules of this District because it fails to cite to
evidence specifically controverting Defendant’s Rule
56.1 Statement. I agree. Plaintiff’s Rule 56.1 statement
does not comply with the rule and is deficient.
Although Plaintiff’s Rule 56.1 Statement purports
that it “disagrees” with the facts listed in Defendant’s
Rule 56.1 Statement, Plaintiff fails to cite to evidence
to create material issues of fact. (See Doc. 183.) In
fact, some of Plaintiff’s statements in his Rule 56.1
Statement do not include facts at all. Rather, he
lodges hearsay and relevancy objections against certain
facts, (e.g., id. ¶¶ 5, 6), states that he cannot confirm
or deny certain facts because Detective Skorzewski
did not testify at Plaintiff’s criminal trial, even
though Plaintiff’s counsel deposed Detective Skorzewski
in this action, (e.g., id. ¶¶ 15, 16, 17, 18, 19, 20), and
makes statements questioning the veracity of certain
evidence, but fails to cite to any specific evidence
controverting the fact, (e.g., id. ¶¶ 5, 7, 8). This is
insufficient to create a genuine issue of material fact.
See Costello, 783 F. Supp. 2d at 661 n.5; Rodriguez,

App.14a
1999 WL 459813, at *1 n.3. Therefore, I consider the
facts asserted in Defendant’s Rule 56.1 Statement as
admitted. See Liles, 516 F. Supp. 2d at 308–09
(considering facts stated in Defendant’s Rule 56.1
statement as admitted when plaintiff failed to comply
with Local Rule 56.1).
B. Municipal Liability Under § 1983
1. Applicable Law
The language of § 1983 makes clear that “Congress
did not intend municipalities to be held liable unless
action pursuant to official municipal policy of some
nature caused a constitutional tort.” Monell v. Dep’t
of Soc. Servs., 436 U.S. 658, 691 (1978). Therefore, a
municipality “cannot be held liable solely because it
employs a tortfeasor.” Id. In order to succeed on a
claim against a municipality under § 1983 based on
acts of government officials, a plaintiff must show:
“(1) actions taken under color of law; (2) deprivation
of a constitutional or statutory right; (3) causation;
(4) damages; and (5) that an official policy of the
municipality caused the constitutional injury.” Cowan
v. City of Mount Vernon, 95 F. Supp. 3d 624, 636
(S.D.N.Y. 2015) (quoting Roe v. City of Waterbury,
542 F.3d 31, 36 (2d Cir. 2008)). A plaintiff must
establish a violation of his constitutional rights in
order to succeed in a claim for municipal liability.
See City of Los Angeles v. Heller, 475 U.S. 796, 799
(1986). However, a plaintiff “need not sue the individual
tortfeasors at all, but may proceed solely against the
municipality.” Askins v. Doe No. 1, 727 F.3d 248, 253
(2d Cir. 2013).

App.15a
When determining whether municipal liability
applies, a court must “conduct a separate inquiry
into whether there exists a ‘policy’ or ‘custom.’”
Cowan, 95 F. Supp. 3d at 637 (quoting Davis v. City
of New York, 228 F. Supp. 2d 327, 336 (S.D.N.Y. 2002)).
In order to prevail, a plaintiff must allege either “(1)
a formal policy officially endorsed by the municipality;
(2) actions taken by government officials responsible
for establishing the municipal policies that caused
the particular deprivation in question; (3) a practice
so consistent and widespread that, although not
expressly authorized, constitutes a custom or usage
of which a supervising policy-maker must have been
aware; or (4) a failure by policymakers to provide
adequate training or supervision to subordinates to
such an extent that it amounts to deliberate indifference
to the rights of those who come into contact with the
municipal employees.” Brandon v. City of New York,
705 F. Supp. 2d 261, 276–77 (S.D.N.Y. 2010) (citations
omitted). A plaintiff cannot show a “policy” or “custom”
sufficient to impose municipal liability merely by providing “[p]roof of a single incident of unconstitutional
activity . . . unless proof of the incident includes proof
that it was caused by an existing, unconstitutional
municipal policy.” City of Oklahoma City v. Tuttle,
471 U.S. 808, 823–24 (1985) (plurality opinion); see
also Cowan, 95 F. Supp. 3d at 637 (“Generally, a custom
or policy cannot be shown by pointing to a single
instance of unconstitutional conduct by a mere employee of the municipality.” (internal quotation marks
omitted)).
2. Application
Defendant argues that Plaintiff’s § 1983 claims
against the City fail because, based on the evidence

App.16a
in the record before me, no reasonable fact-finder
could conclude that a policy or custom of the City
caused Plaintiff’s purported constitutional deprivations.
(Def.’s Mem. 3–6.)4 I agree.
Plaintiff appears to argue that the municipal
policy that caused his injuries was an unwritten policy
of racial discrimination employed by the City against
black people. (Pl.’s Opp. 15–24.)5 In particular, Plaintiff claims that the City has a policy of arresting
black people without probable cause. (Id.) However,
Plaintiff fails to present evidence of a municipal policy
or custom sufficient to overcome summary judgment.
The primary piece of evidence on which Plaintiff
relies to support his argument is the deposition testimony of Detective Skorzewski stating that he arrested Plaintiff pursuant to NYPD policy. In particular,
Plaintiff points to the following exchange:
Q:

Officer Skorzewski, at some point you made
a decision to arrest Mr. Diarra; is that correct?

A:

Yes.

Q:

Why was that decision made?

[Objection]
A:

Mostly NYPD policy at this point.

Q:

And what is the policy?

4 “Def.’s Mem.” refers to the Memorandum of Law in Support of
Defendant’s Motion for Summary Judgment, filed January 22,
2018. (Doc. 180.)
5 “Pl.’s Opp.” refers to the Memorandum of Law in Support of
Plaintiff’s Opposition to Summary Judgment, filed February 2,
2018. (Doc. 186.)

App.17a
A:

It was a domestic arrest, meaning they have
an intimate relationship. There’s a victim.
There were hospital reports.

(Skorzewski Dep. 22:4-15.) In addition, the following
exchange occurred between Detective Skorzewski
and counsel for Defendant:
Q:

You testified that it’s NYPD policy to make
an arrest. What specifically were you referring to when you said that in this case?
[Objection]

A:

Not necessarily a written rule that the
NYPD has, but if you have a complainant
witness and medical evidence showing, in
this case this assault, then there’s probable
cause to make an arrest.

Q:

So the policy is to make an arrest based on
probable cause?

A:

Yes.

Q:

And that’s what you were referring to?

A:

Yes.

(Skorzewski Dep. 31:2-18.)
Detective Skorzewski’s testimony does not support
Plaintiff’s assertion that his alleged injuries were
caused by a policy or custom of the City to arrest black
people without probable cause. Rather, his testimony
sets forth the following facts: (1) the NYPD has a
policy of making arrests based on probable cause; (2)
generally, when there is a complaining witness and
corroborating medical evidence demonstrating assault,
there is probable cause; (3) there was probable cause to
arrest Plaintiff because the victim complained that

App.18a
Plaintiff domestically abused her and there was
corroborating medical evidence; and (4) Detective Skorzewski arrested Plaintiff pursuant to a finding of
probable cause. As general matter, Plaintiff does not
identify any evidence to support even an inference
that his arrest was motivated in any way by race or
racial animus. Specifically, Plaintiff fails to point to
any evidence indicating that his arrest was made
pursuant to an official NYPD policy of making arrests
without probable cause on the basis of racial discrimination.6 Nor does Plaintiff point to any evidence
suggesting (1) that Detective Skorzewski had authority
to or played any role in making NYPD policy,7 (2)
that there was a practice of racially discriminatory
arrests so consistent and widespread as to constitute
a custom or usage of the NYPD, or (3) that Detective
6 Plaintiff makes repeated references to an alleged statement
by Detective Skorzewski to Plaintiff that “You have no rights in
your country, what law are you talking about?” (See Pl.’s Opp.
20.) Plaintiff cites to the Amended Complaint as the evidentiary
basis for that statement. (Id.; see also Doc. 86 ¶ 25.) However,
allegations in a pleading are insufficient to create a genuine
issue of fact on a motion for summary judgment. Gottlieb v. Cty.
of Orange, 84 F.3d 511, 518 (2d Cir. 1996) (“[A party opposing
summary judgment] cannot defeat the motion by relying on the
allegations in his pleading.”). Plaintiff deposed Detective
Skorzewski but failed to question him on this purported statement. (See generally Skorzewski Dep.) In any event, even if
Detective Skorzewski had made the purported statement, it
would not, without additional evidence, be probative of whether
or not the City had a policy of arresting black people without
probable cause.
7 In fact, Detective Skorzewski testified that he had no responsibility for determining policies and practices of the NYPD,
which Plaintiff failed to controvert. (Def.’s 56.1 ¶ 13; Smith
Decl. Ex. F ¶¶ 3–4.)

App.19a
Skorzewski’s arrest of Plaintiff was the result of
inadequate training or supervision by the NYPD. See
Brandon, 705 F. Supp. 2d at 276–77 (listing ways to
prove municipal policy or custom).
As such, Defendant is entitled to summary judgment on Plaintiff’s § 1983 claims.8 See Patterson v.
Cty. of Oneida, N.Y., 375 F.3d 206, 222 (2d Cir. 2004)
(affirming summary judgment against plaintiff on
§ 1983 claim where plaintiff relied solely on conclusory assertions of policy or custom).
C. State Law Claims
Defendant contends that Plaintiff’s New York state
law claims should be dismissed because Plaintiff failed
to file a notice of claim before bringing this action.
(Def.’s Mem. 17–18.) When suing the City of New York
or its employees, a plaintiff asserting state law tort
claims against a municipal entity or its employees
acting in the scope of employment must: (l) file a
notice of claim within ninety days after the claim
arises, N.Y. Gen. Mun. Law § 50-e(1)(a), and (2) commence the action within a year and ninety days from
the date on which the cause of action accrues, id.
§ 50-i(1). Sections 50-e and 50-i have been strictly
construed by both state and federal courts. See Dunham
v. City of New York, 295 F. Supp. 3d 319, 329 (S.D.N.Y.
2018); Mosdos Chofetz Chaim, Inc. v. Vill. of Wesley
Hills, 815 F. Supp. 2d 679, 708–09 (S.D.N.Y. 2011).
New York’s notice-of-claim provisions also apply to
8 Because the lack of any evidence of a policy or custom is dispositive as to Plaintiff’s § 1983 claims against the City, I do not
address Defendant’s remaining arguments for dismissal of
those claims.

App.20a
state constitutional claims. See 423 S. Salina St., Inc.
v. City of Syracuse, 503 N.E.2d 63, 65 (N.Y. 1986)
(holding that plaintiff’s claim for violation of New
York State Constitution was barred by New York’s
notice-of-claim provision).
Plaintiff has failed to submit any evidence that
he complied with New York’s notice-of-claim provisions
before bringing this action. Rather, Plaintiff appears
to argue that those provisions are unconstitutional
because they limit a plaintiff’s federally protected
rights. (Pl.’s Opp. 34–36.) However, it is a “general rule
that in a federal court, state notice-of-claim statutes
apply to state-law claims.” Hardy v. N.Y.C. Health &
Hosp. Corp., 164 F.3d 789, 793 (2d Cir. 1999). Although the notice-of-claim requirements do not necessarily apply to § 1983 claims brought in federal court,
they do otherwise apply to state law claims that are
brought in federal court as related to § 1983 claims.
See Mosdos Chofetz Chaim, Inc., 815 F. Supp. 2d at
708–09. Plaintiff fails to explain how application of
New York’s notice-of-claim provisions to Plaintiff’s
New York state law claims infringes upon his federally protected rights. Because Plaintiff has set forth
no evidence in the record that he has complied with
New York’s notice-of-claim provisions, summary judgment is warranted as to Plaintiff’s state law claims.
V.

Conclusion

For the foregoing reasons, Defendant’s motion
for summary judgment is GRANTED. The Clerk of
Court is respectfully directed to enter judgment for
Defendant, terminate the pending motion, (Doc. 178),
and close this case.

App.21a
SO ORDERED.
/s/ Vernon S. Broderick
United States District Judge
Dated: September 20, 2018
New York, New York

App.22a
ORDER OF THE SECOND CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(AUGUST 9, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
________________________
MOUSSA DIARRA,

Plaintiff-Appellant,
v.
CITY OF NEW YORK,

Defendant-Appellee.

________________________
Docket No: 18-2821

Appellant, Moussa Diarra, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe
Clerk

App.23a

STATUTORY TEXT
N.Y. Gen. Mun. Law § 50-e(1)
When service required; time for service; upon
whom service required:
(a) In any case founded upon tort where a notice
of claim is required by law as a condition precedent to
the commencement of an action or special proceeding
against a public corporation, as defined in the general
construction law, or any officer, appointee or employee
thereof, the notice of claim shall comply with and be
served in accordance with the provisions of this section
within ninety days after the claim arises; except that
in wrongful death actions, the ninety days shall run
from the appointment of a representative of the
decedent’s estate.
N.Y. Gen. Mun. Law § 50-I(1)
No action or special proceeding shall be prosecuted
or maintained against a city, county, town, village, fire
district or school district for personal injury, wrongful
death or damage to real or personal property alleged
to have been sustained by reason of the negligence or
wrongful act of such city, county, town, village, fire
district or school district or of any officer, agent or
employee thereof, including volunteer firefighters of
any such city, county, town, village,
fire district or school district or any volunteer
firefighter whose services have been accepted pursuant
to the provisions of section two hundred nine-i of this
chapter, unless, (a) a notice of claim shall have been
made and served upon the city, county, town, village,
fire district or school district in compliance with section
fifty-e of this article, (b) it shall appear by and as an

App.24a
allegation in the complaint or moving papers that at
least thirty days have elapsed since the service of
such notice, or if service of the notice of claim is made
by service upon the secretary of state pursuant to
section fifty-three of this article, that at least forty
days have elapsed since the service of such notice,
and that adjustment or payment thereof has been
neglected or refused, and (c) the action or special
proceeding shall be commenced within one year and
ninety days after the happening of the event upon
which the claim is based; except that wrongful death
actions shall be commenced within two years after
the happening of the death.

